<html>
<title> - [H.A.S.C. No. 116-33] FERES DOCTRINE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                                     
 
                         [H.A.S.C. No. 116-33]

              FERES DOCTRINE--A POLICY IN NEED OF REFORM?

                               __________

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON MILITARY PERSONNEL

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             APRIL 30, 2019


                                     

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                             ______

              U.S. GOVERNMENT PUBLISHING OFFICE 
37-500                 WASHINGTON : 2020 
                                     
  


                   SUBCOMMITTEE ON MILITARY PERSONNEL

                 JACKIE SPEIER, California, Chairwoman

SUSAN A. DAVIS, California           TRENT KELLY, Mississippi
RUBEN GALLEGO, Arizona               RALPH LEE ABRAHAM, Louisiana
GILBERT RAY CISNEROS, Jr.,           LIZ CHENEY, Wyoming
    California, Vice Chair           PAUL MITCHELL, Michigan
VERONICA ESCOBAR, Texas              JACK BERGMAN, Michigan
DEBRA A. HAALAND, New Mexico         MATT GAETZ, Florida
LORI TRAHAN, Massachusetts
ELAINE G. LURIA, Virginia
                 Glen Diehl, Professional Staff Member
                          Dan Sennott, Counsel
                         Danielle Steitz, Clerk
                         
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Kelly, Hon. Trent, a Representative from Mississippi, Ranking 
  Member, Subcommittee on Military Personnel.....................     3
Speier, Hon. Jackie, a Representative from California, 
  Chairwoman, Subcommittee on Military Personnel.................     1

                               WITNESSES

Figley, Paul F., J.D., Professor of Legal Rhetoric, American 
  University Washington College of Law...........................    13
Lipe, Rebecca, J.D., Former Air Force Judge Advocate and 
  Associate Attorney, Steptoe & Johnson, LLP, Service Women's 
  Action Network.................................................    10
Stayskal, SFC Richard, USA, Special Forces Green Beret...........     5
Stirling, Dwight, J.D., LL.M., Chief Executive Officer, Center 
  for Law and Military Policy....................................    12
Witt, Alexis, Widow of SSgt Dean Witt and Advocate for Feres 
  Doctrine Reform................................................     8

                                APPENDIX

Prepared Statements:

    Figley, Paul F...............................................   114
    Lipe, Rebecca................................................    62
    Speier, Hon. Jackie..........................................    37
    Stayskal, SFC Richard........................................    40
    Stirling, Dwight.............................................    73
    Witt, Alexis.................................................    51

Documents Submitted for the Record:

    ``Rethinking Feres,'' by Andrew F. Popper....................   141

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
              FERES DOCTRINE--A POLICY IN NEED OF REFORM?

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                        Subcommittee on Military Personnel,
                           Washington, DC, Tuesday, April 30, 2019.
    The subcommittee met, pursuant to call, at 2:12 p.m., in 
room 2118, Rayburn House Office Building, Hon. Jackie Speier 
(chairwoman of the subcommittee) presiding.

OPENING STATEMENT OF HON. JACKIE SPEIER, A REPRESENTATIVE FROM 
   CALIFORNIA, CHAIRWOMAN, SUBCOMMITTEE ON MILITARY PERSONNEL

    Ms. Speier. Good afternoon. This hearing will come to 
order.
    I want to welcome everyone to the Military Personnel 
Subcommittee of the Armed Services Committee on a hearing that 
we are having today on what has been dubbed the Feres doctrine 
on military personnel, and the prohibition of Active Duty 
service members from bringing suit against the U.S. Government, 
specifically for medical malpractice.
    Feres is the product of judicial activism and Congress' 
silence. As no less an authority than my favorite Supreme Court 
Justice, Antonin Scalia, said, quote, ``There is no 
justification for this Court to read exemptions into the act 
beyond those provided by Congress. If the act is to be altered, 
then it is a function for the same body that adopted it,'' 
unquote. The court overreached, and Congress' response is long 
overdue.
    Today, we have a panel to help inform us of the issues 
surrounding the Feres doctrine. Our first three witnesses are 
pained victims who have been aggrieved firsthand by the 
outdated judicial doctrine.
    I want to thank you all for being here. You are 
representing yourselves, your families, and countless others 
despite what you have lost and will lose. Your commitment to 
fixing this policy is admirable and greatly appreciated.
    Our first witness is Sergeant First Class Richard Stayskal, 
whose radiologic diagnostic test was misread at an Army 
treatment facility and who currently has stage 4 terminal 
cancer.
    Sergeant Stayskal, I want to take this moment to thank you 
in particular. Because of the malpractice you suffered, your 
time is numbered in days and weeks, not years and decades. I 
know you would rather spend this time that you have left with 
your family and loved ones closer to home, not here at 
Congress, but I am greatly indebted to you for doing so. You 
have moved me, by the conversation we had months ago, so much 
that I felt compelled to hold this hearing today.
    So I know you are here not because I invited you but 
because your commitment to your fellow service members runs so 
deep, your desire to achieve justice for them so profound, that 
you continue to look out for them as best as you can and as 
long as you can. And I promise you that we will all remember 
your commitment, your honor, and your sacrifice and that I will 
keep working on this to fix it as long as I am here.
    Our second witness is Ms. Alexis Witt, the widow of Air 
Force Staff Sergeant Dean Patrick Witt, who was hospitalized in 
2003 for what should have been a routine appendectomy at Travis 
Air Force Base in Fairfield, California. Following surgery, a 
nurse administered a lethal dose of fentanyl, causing 
respiratory and cardiac arrest, and incorrectly inserted a 
breathing tube into his esophagus, depriving his brain of 
oxygen. Staff Sergeant Witt remained in a vegetative state for 
3 months until Ms. Witt removed his feeding tube.
    Our third witness is Ms. Rebecca Lipe, a former judge 
advocate for the Air Force who now practices in the civilian 
sector, who, while deployed in Iraq, had to wear ill-fitting, 
MacGyvered body armor that caused her debilitating abdominal 
pain. Military physicians repeatedly misdiagnosed and 
mistreated her, making the problem worse and causing chronic 
pain and permanently damaging her reproductive system.
    These three witnesses represent the countless hundreds, if 
not thousands, of victims denied justice over the 69 years the 
Feres doctrine has been in place.
    I hope to learn more about the malpractice the three of you 
have suffered and how the Feres doctrine amplified the harm.
    The families of Feres victims, both here and around the 
country, suffer too. They lose loved ones in the prime of their 
lives and are left with a one-size-fits-all compensation system 
that cannot hope to adjust for the damage done in severe 
malpractice cases.
    When our service members suffer from medical malpractice, 
when doctors fail to perform or woefully misread tests, when 
nurses botch routine procedures, when clinicians ignore and 
disregard pain, service members deserve their day in court. 
When lives are disrupted, ruined, and cut short by negligence, 
service members deserve a chance to receive just compensation.
    We are not talking about special treatment. We are talking 
about giving service members the same rights as their spouses, 
Federal workers, and even prisoners when compensation schemes 
are insufficient. When administrative redress processes fail, 
service members should have their claims heard in the justice 
system under the Federal Tort Claims Act.
    And we are not talking about service members who, in Active 
Duty, are in combat. We are talking about service members who 
are here in the United States or elsewhere not in a combative 
role.
    In our country, we rightfully revere service members for 
their bravery and sacrifice. It is disrespectful and shameful 
that for 69 years, Congress has refused to give them the same 
rights as everyone else or just the same rights as the rest of 
their families.
    But this isn't just a matter of justice; it is a question 
of accountability. Because behind the shield of Feres, DOD's 
[Department of Defense's] health providers act with impunity. 
We have heard countless stories from service members of 
procedures, big and small, botched in ways that are always 
frustrating and occasionally catastrophic. Gauging the full 
extent of this problem is difficult, but ask any service member 
you meet or their family, and they will have a story.
    Allowing service members to sue the Department of Defense 
for medical malpractice will help root out this rot. There are 
few incentives better than the threat of legal action to push 
an organization to change its behavior. This would lead to 
better quality care for our service members and higher levels 
of readiness.
    We will also hear from two legal experts who have studied 
the Feres doctrine. We look forward to gaining a better 
understanding of the legal foundation for Feres and why it has 
remained in place for 69 years just because the Supreme Court 
decided to legislate and Congress has sat back idly. We would 
like our legal experts to share any recommendations on how the 
Feres doctrine may be changed in ways that respect the unique 
nature and needs of the U.S. military.
    The legal experts on our panel are Dr. Dwight Stirling, 
chief executive officer of the Center for Law and Military 
Policy, a think tank dedicated to strengthening the legal 
protections of those who serve the Nation in uniform. Dr. 
Stirling is also a Reserve JAG [Judge Advocate General] officer 
in the California National Guard and co-founder of Veterans 
Legal Institute.
    Also joining us is Mr. Paul Figley, professor and associate 
director of legal rhetoric, American University Washington 
College of Law, that has published on the defense of the Feres 
doctrine.
    Before hearing from our panel, let me offer Ranking Member 
Kelly an opportunity to make his opening remarks.
    [The opening statement of Ms. Speier can be found in the 
Appendix on page 37.]

     STATEMENT OF HON. TRENT KELLY, A REPRESENTATIVE FROM 
MISSISSIPPI, RANKING MEMBER, SUBCOMMITTEE ON MILITARY PERSONNEL

    Mr. Kelly. Thank you, Chairwoman Speier.
    I want to thank each of our witnesses for being here today. 
I particularly want to thank Sergeant First Class Stayskal, Ms. 
Witt, and Ms. Lipe, who graduated from the same law school as I 
did, for your service to our great Nation.
    I wish to extend my profound sympathy for what each of you 
has gone through and are going through. No one should have to 
experience what you have experienced. Our service members, who 
sacrifice so much, deserve the best medical care that we can 
provide, and we, as an institution, let you down.
    I am glad that you are able to tell your stories here today 
and bring public attention to this very important issue. But 
the unfortunate reality is that the Judiciary Committee, not 
the Armed Services Committee, has jurisdiction over this issue 
and should be holding this hearing instead of us. I encourage 
our colleagues on the Judiciary Committee to do so and to have 
an open debate on this issue that impacts our brave men and 
women who serve this great Nation.
    But even if the Feres doctrine is changed, we know it will 
not make you or the other victims of military medical 
malpractice whole. We know that nothing can take away the 
profound wrongs that have been done to you. Therefore, we must 
focus on preventing these mistakes from happening again.
    My primary concern is to make sure that the failures you 
experienced in the military medical health system do not happen 
to other service members. The quality of care in our Military 
Health System is something that is squarely within the 
jurisdiction of this committee.
    In reading through the written statements of Sergeant First 
Class Stayskal, Ms. Witt, and Ms. Lipe, it is clear that the 
medical malpractice in these cases was not isolated to just one 
doctor. For example, Sergeant First Class Stayskal visited 
multiple doctors and the ER [emergency room] on several 
occasions, and not one of those doctors correctly diagnosed his 
cancer. In Ms. Lipe's case, she was treated in a combat zone, 
then at Landstuhl, and then back in the United States before 
anyone found her source of pain. These repeated failures, which 
occurred at military medical treatment facilities all around 
the world, indicate systemic problems within the military 
healthcare system.
    Based on the language of the 2017 NDAA [National Defense 
Authorization Act], the Military Health System is currently 
undergoing the largest reform in a generation. This includes 
standardizing patient experience, improving quality of care, 
and increasing access to care--reforms that are essential to 
fixing the types of issues highlighted by your cases.
    However, there are aspects of the Defense Department's 
reform plan that deserve great scrutiny. The services are 
contemplating a reduction of up to 20 percent of uniformed 
medical personnel, the Defense Department is evaluating whether 
medical facilities should be closed down, and many service 
members and beneficiaries are concerned.
    I fear that these changes may damage the Military Health 
System and that these profound changes will happen without 
proper oversight from Congress. That is why I have asked for 
this subcommittee to hold a hearing on the status of military 
health reform.
    In addition, The Military Coalition, a consortium of 
organizations representing 5.5 million service members, 
veterans, their families, and survivors, recently wrote the 
subcommittee urging the committee to hold a hearing on military 
health reform.
    Madam Chairwoman, I ask that The Military Coalition's 
letter be made part of the record.
    Ms. Speier. Without objection.
    [The letter referred to was not available at the time of 
printing.]
    Mr. Kelly. I urge the subcommittee to have a hearing on 
military healthcare reform prior to the National Defense 
Authorization Act markup so that members can address these 
important issues.
    While I look forward to hearing from each of the witnesses 
today to discuss the Feres doctrine, I also want to learn more 
about your medical experiences and what we can do to make sure 
that these failures don't happen to any other service members.
    With the military healthcare reforms currently underway, we 
have a rare opportunity to fix many of the problems that you 
encountered. So I look forward to your testimony, and I thank 
you for discussing this very important subject.
    With that, Madam Chairwoman, I yield back.
    Ms. Speier. Thank you, Mr. Kelly.
    I ask unanimous consent to allow Members not on the 
subcommittee to participate in today's hearing and be allowed 
to ask questions after all subcommittee members have been 
recognized. Any objection?
    Mr. Kelly. Without objection.
    Ms. Speier. Each witness will have the opportunity to 
present his or her testimony, and each member will have an 
opportunity to question the witnesses for 5 minutes.
    We respectfully ask the witnesses to summarize their 
testimony in 5 minutes or less. Your written comments and 
statements will be made part of the hearing record.
    Also, we had hoped to have Professor Andy Popper of the 
American University Law School testify today. Though personal 
issues precluded his participation, I would like to ask 
unanimous consent to enter his article on this subject in the 
record.
    Mr. Kelly. Without objection.
    Ms. Speier. Without objection, so ordered.
    [The information referred to can be found in the Appendix 
on page 141.]
    Ms. Speier. With that, Sergeant First Class Stayskal, you 
will make your opening remarks. Thank you so much again for 
being here.

 STATEMENT OF SFC RICHARD STAYSKAL, USA, SPECIAL FORCES GREEN 
                             BERET

    Sergeant Stayskal. Chairwoman Speier, Ranking Member Kelly, 
and members of the subcommittee. I am grateful for your 
support, Chairwoman Speier, and thank you for the opportunity 
to appear here before you today in the subcommittee to present 
my story.
    I very much appreciate being invited to testify about the 
Feres doctrine. This is the first time I have ever been called 
to testify, and I wish it could have been under different 
circumstances, but, nonetheless, I feel this is an important 
issue to address.
    I feel this is a very important issue to the military 
community that requires congressional intervention to address 
and fix how this mistaken doctrine is used to strip hundreds of 
service members like myself and their families of the same 
rights that the rest of the citizens of our country have when 
it comes to medical malpractice.
    By way of introduction, I served as a Marine for 4 years 
and am currently serving as a Green Beret in the United States 
Army Special Forces, stationed at Fort Bragg, North Carolina. I 
have devoted my entire career to the military, with this June 
marking my 17th year of service.
    I first enlisted into the United States Marine Corps in 
2001 and served as a machine gunner and a scout sniper for 4 
years. During my 2004 tour to Al Anbar province, Ramadi, Iraq, 
I was critically wounded in action by heavy insurgent sniper 
fire. Following my recovery, I was honorably discharged from 
the Marine Corps.
    By 2008, I had joined the Army and become special forces. I 
was assigned to the 10th Special Forces Group, Fort Carson, 
Colorado, and later assigned 1st Special Warfare Training 
Group. I have been on multiple deployments throughout areas of 
responsibility in support of national interests during global 
war on terrorism. I have held numerous positions throughout my 
military career.
    I was selected by the Army Special Forces Group to attend 
special forces underwater school Combat Dive Qualification 
Course, CDQC. Because of my previous gunshot wound, it was 
mandatory that I could not attend this school without having a 
CT [computerized tomography] scan done of my lungs to ensure 
the safety of myself and other divers within the course. When 
the imaging was done, my physical went forward, and I was 
cleared in January. A civilian had reviewed my scans and 
cleared me to go, and I went down to school.
    Until about 6 months later, I found out that a Womack Army 
doctor failed to identify an abnormally (over 1.5 centimeter) 
large tumor located in the upper right lobe of my lung.
    While attending dive school around the end of March 2017, I 
was experiencing difficulty breathing, and by April 2017 I had 
begun noticing signs of declining health--something I had never 
experienced before in my career or life. I was wheezing, 
coughing, had difficulty breathing. Anytime I would lay flat on 
my back, I felt like I was suffocating, and the weight on my 
chest was--it was unbearable. I had also begun coughing up a 
bit of blood at this time.
    Typically, I am not one to complain. My training doesn't 
allow it. We continue to work without complaint. I started to 
express my concerns to my wife, Megan, and my coworkers. 
Finally, I had enough. I had to admit myself for help. I went 
down to the SWCS [Special Warfare Center and School] clinic to 
seek treatment, and they called an ambulance and sent me down 
to the Womack Army Hospital.
    As I was wheeled into Womack Army Hospital, I went straight 
through the triage room and went out to the waiting room, where 
I was placed to wait with everybody else. By the time I saw the 
nurse and she had taken my vitals and I told her my symptoms 
and signs, she pretty much told me there was no way I could be 
in serious pain or any kind of discomfort due to my age and my 
condition of my job. She pretty much just disregarded it.
    By the time I went back and I saw the ER doctor, he had 
ordered an x-ray, reviewed the x-ray, and said it was probably 
walking pneumonia. So he did a couple breathing treatments and 
sent me on my way.
    Later that week, things continued to progress. By 1 week 
later, May 22nd, I was back into the ER. This time, I was 
calling my wife, I called TRICARE, I called the Army hospital; 
I begged and begged and begged for somebody to see me. I knew 
something was wrong at this point. My vision was going out, I 
couldn't concentrate, and I couldn't see.
    My commander, not wanting me to go back to Womack Army 
Hospital and suffer the same thing, put me in my car and had 
somebody drive me out to meet my wife in town. By the time I 
got out there, I was practically unconscious. My wife picked me 
up, along with a friend, put me in a wheelchair, and they 
wheeled me inside.
    While I was waiting to be seen, I completely passed out at 
this time. They took me in the back, where I was told a nurse 
did a sternum rub on my chest to bring me back and wake me up. 
From there, I did more treatments, and the ER discharged me 
with potential walking pneumonia and gave me prednisone. They 
didn't find anything either.
    It was also stated that when I left Fort Bragg Army Womack 
Hospital that something had been seen and it was noted, but 
they didn't tell me what it was or what condition it was, that 
I was just to wait to follow up.
    By the time I had been seen out in town, 6 months had 
passed by. The tumor had doubled in size; 2.8 by 2.2 
centimeters was present on my upper right lung, and the CT scan 
showed a follow-up that should have been scheduled for me. Like 
I said, nobody ever told me.
    It wasn't until finally my commander went down to the 
hospital and demanded that I either be seen or released to go 
off-post. At that time, the officer in charge said it was fine, 
I could go off-post. He released me, but, yet again, it took 
within the system several weeks for me to get off-post and be 
seen.
    Once I was off-post and seen, immediately the doctor called 
me within a matter of a day, told me I needed more scans and I 
needed to bring everything in that I had. I brought that all 
in. Within 2 more days, I was seen, did a breathing treatment 
test. And then the last question he asked me, he says, have you 
been coughing up blood? I said, yes, I have. He says, you need 
to go downstairs immediately and do a scan.
    He called me within the next day and said, if I could have 
you in here tomorrow for a test, I would, but I have to wait 
until the following week. So the following week I went in, and 
I had a biopsy done on my lung. And when I awoke, I was woken 
up to my wife crying and learning that I had, at the time, 
stage 3A lung cancer.
    This life-changing news that could have been addressed 
nearly 6 months earlier while the cancer was still contained to 
one area of my lung--sorry--is inexcusable.
    Later, around Christmas of 2017, I began to cough up more, 
in tremendous amounts of pain. By the beginning of January 
2018, I had to go to the ER, where I was seen again for 
exhibiting difficulties breathing. This was an overall 
physically painful time due to my cancer spreading throughout 
my body.
    I eventually did a PET [positron emission tomography] scan, 
and the PET scan revealed that my cancer had been metastatic 
and had spread. It now was in the left side of my neck in my 
lymph nodes, my spleen, liver, ilium crest, spine, and right 
hip joint. Beginning on January 22, 2018, I was diagnosed stage 
4, terminal.
    The failure of the military doctor's gross negligence and 
the failure to detect my cancer when it was first noted on the 
CT scan done on me in January of 2017 is a mistake that allowed 
an aggressive tumor to double in size and rob me and my family 
of my life without any recourse due to a 1950s Supreme Court 
court case that created the Feres doctrine.
    Because of all that has taken place, I am no longer able to 
complete the Warrant Officer Course which I was selected for, 
and I am now currently being separated due to a medical 
discharge.
    I have endured countless CT scans, MRIs [magnetic resonance 
imagings], PET scans, radiation, chemo, spleen biopsy, lung 
biopsy, as well as surgery to remove my upper right lobe. I 
have had countless other procedures, and no end in sight.
    Lastly, I want to say that this does affect me, obviously, 
but my children are definitely the true victims, along with my 
wife. The hardest thing I have to do is explain to my children 
when they ask me, this doesn't make sense, how is this 
happening, and I have no good answer to give them. And I say, 
that is why I am coming up here to help convince these folks in 
Congress to change this.
    This doctrine has effectively barred hundreds of service 
members and their families any chance to be made whole for 
receiving negligent medical care that is given by the 
government provider when service members are on Active Duty. 
Regardless of whether injury was a result of combat service or 
deployment, the doctrine has been utilized by branches of the 
military to shield negligent medical care given by military 
providers. This is medical care in which there is no element of 
military judgment.
    In truth, the only difference between a military provider 
and a civilian provider is the military provider wore fatigues 
to work that day and his or her patients do not have a choice 
accepting their services.
    This is why I am up here today, to call upon you folks to 
hear our cases and hopefully make a change within Congress in 
legislation.
    I want to thank again my attorneys, Natalie Khawam and 
Daniel Maharaj, and again my family, and again Chairwoman 
Speier and Ranking Member Kelly for holding this and hearing my 
story.
    [The prepared statement of Sergeant Stayskal can be found 
in the Appendix on page 40.]
    Ms. Speier. Sergeant Stayskal, that was profound testimony. 
Thank you so very much.
    Ms. Witt.

STATEMENT OF ALEXIS WITT, WIDOW OF SSGT DEAN WITT AND ADVOCATE 
                   FOR FERES DOCTRINE REFORM

    Ms. Witt. Thank you, Chairwoman Speier, and to the members 
of the subcommittee for the opportunity to speak today.
    As you know and as you mentioned earlier, in October 2003, 
my husband, Staff Sergeant Dean Witt, underwent a routine 
appendectomy. The nurse anesthetist was faulted for having 
administered a lethal dose of fentanyl, resulting in 
respiratory and cardiac arrest. She failed to call a code blue, 
used pediatric equipment for resuscitation, and misdirected a 
breathing tube.
    Each mistake delayed critical seconds, and Dean suffered 
severe brain damage and remained in a vegetative state until I 
removed his feeding tube 3 months later.
    I later filed a wrongful death suit, but my case was 
dismissed on the grounds of the Feres doctrine.
    Sixty-nine years ago, the Feres doctrine was wrongly 
decided by the Supreme Court, because it leads to not only 
medical malpractice but also the abuse of power, mistreatment 
of survivors, lack of transparency, and lack of accountability.
    After the malpractice incident and while my husband was 
still in the intensive care unit, I met with two JAG officers, 
a death casualty officer, Dean's major and first sergeant to 
discuss permanently retiring Dean. I was outnumbered, I was 
alone, and I was without legal representation. I knew signing 
these documents was serious, but I didn't understand all the 
implication or consequences it would impose.
    In my distress, I told the JAG officers I preferred to 
wait. I was threatened with the removal of my medical benefits 
and Dean's pay frozen until I signed these documents. Later, I 
would learn that the rush to have Dean retired came down to 
eligibility for survivors' benefits, as Active Duty death 
benefits differ from retired benefits.
    I was also told a formal investigation would take place and 
would result in changes to safety protocols within the hospital 
to prevent another tragedy from occurring. When I asked about 
the details of these safety measures and for a copy of the 
investigation, I was told that the information was protected by 
title 10 of the United States Code, would not be made available 
to me or to anybody in the public, and I would never fully know 
what happened to my husband in the OR [operating room].
    The nurse responsible for my husband's death was also 
responsible for the death of another airman just 1 year prior. 
A colleague had stated she was considered the weakest link in 
their department. Despite her performance being merited as 
unsatisfactory, no preventive measures were taken to curtail 
her advancement, and she went on to kill two patients. If the 
appropriate action had been taken on this nurse during her 
first lethal negligent episode, Dean would still be alive 
today.
    Before I end my time today, I would like to discuss one 
last topic that is delicate in nature. And I don't want to come 
across as indelicate, but it is a matter worth mentioning 
because it affects all survivors that are affected by the Feres 
doctrine.
    It comes down to survivors' benefits. They are often cited 
by the opposition as the reason not to move forward with the 
Feres reform. Military law expert Eugene Fidell has quoted 
survivor benefits as being robust, yet they do not take into 
account pain and suffering. These benefits also come with 
restriction, whereas an award settlement would not have such 
restrictions.
    To name a few of these restrictions and what I experience 
each year, I have to sign a certificate of eligibility form 
proclaiming that I have not married in the past year. I have to 
do this twice a year, for each of my dependents.
    SBP [Survivor Benefit Plan] and the DIC [Dependency and 
Indemnity Compensation] offset cut 65,000 spouses out of nearly 
$12,000 a year in compensation. The SBP is an insurance 
annuity, and DIC is a VA [Veterans Affairs] benefit, but they 
count against one another when they shouldn't. If the survivor 
remarries, he or she forfeits the VA benefit.
    There are also earned income restrictions. With the DIC, I 
cannot take a job that would go over $8,000 a year.
    The Department of Defense survivors' benefit is taxable. 
The SBP is treated the same as a trust or estate, which means 
minor children can be taxed at a rate as high as 37 percent. 
The Department of Veteran Affairs' Dependency and Indemnity 
Compensation is not taxable. With an award settlement, the IRS 
[Internal Revenue Service] does not tax award settlements for 
personal injury cases or wrongful death cases.
    I hope my experience with the Feres doctrine has served a 
higher purpose and gives you a well-rounded view of its effects 
on our military and their dependents. And thank you for holding 
this hearing and thank you for listening.
    [The prepared statement of Ms. Witt can be found in the 
Appendix on page 51.]
    Ms. Speier. Thank you so much for your testimony. I think 
we have struggled for a long time on the issue of widowhood and 
the compensation issue, and it is one that has to be fixed. But 
you have raised some other additional issues that we will get 
to during the rest of the hearing. Thank you so much.
    Ms. Lipe.

    STATEMENT OF REBECCA LIPE, J.D., FORMER AIR FORCE JUDGE 
   ADVOCATE AND ASSOCIATE ATTORNEY, STEPTOE & JOHNSON, LLP, 
                 SERVICE WOMEN'S ACTION NETWORK

    Ms. Lipe. Madam Chairwoman, Ranking Member Kelly, honorable 
members of the subcommittee, my name is Rebecca Lipe, and today 
I have the unique privilege to speak to you as a disabled Air 
Force veteran and a representative of the Service Women's 
Action Network.
    My story begins in 2011, when I deployed to the Combined 
Joint Special Operations Task Force in Balad, Iraq. In my role 
as the deputy staff judge advocate, I oversaw six subordinate 
commands and their respective JAGs. These duties required me to 
travel around the country in full gear, which included the 
standard-issue ballistic vest.
    Now, the ballistic vests are not designed to fit a woman's 
body. In order for the gear to protect my vital organs, I 
actually had to remove the side panels, and I had to place foam 
inserts on the shoulders in order to remove some of the slack. 
I also was required to overtighten the gear around my waist so 
that it would remain in place. Ironically, this made the gear 
less protective.
    Five and a half months into my deployment, I began having 
acute and debilitating pain in my abdomen. At the same time, we 
were withdrawing from Iraq--excuse me--so there were limited 
resources at the medical facility in Balad to actually address 
my pain.
    However, instead of conducting an actual, thorough exam, 
they first accused me of having an extramarital affair, which 
was blatantly false, told me I must have had STDs [sexually 
transmitted diseases], and then--excuse me.
    Ms. Speier. Ms. Lipe, take your time. Take a little swig of 
water if you would like.
    Ms. Lipe. And then they chalked up my pain to normal 
women's problems.
    From Iraq, I was medically evacuated to Landstuhl, Germany. 
Landstuhl is one of the most premier hospitals in the 
military's arsenal. Even with the extensive resources available 
at Landstuhl, the doctors determined without any objective 
evidence that I had pelvic inflammatory disease, which is 
considered a normal, like, typical woman's problem.
    They also, without any evidence, treated me on antibiotics 
for malaria, which I also did not have, and decided to 
medically evacuate me all the way back to Hurlburt Field.
    From there, the mistakes continued for more than a year. 
The medical providers at Eglin Air Force Base were certain it 
was a female reproductive issue and performed two random, 
unnecessary surgeries on me and prescribed medicine that placed 
me into temporary menopause at 27 years old. This caused 
catastrophic hormonal depletions, organ and vaginal tissue 
atrophy, prevented sexual intimacy of any kind with my husband, 
and caused severe levels of depression to the point I was 
suicidal.
    Throughout this trauma, I was also accused by military 
medical professionals of malingering and making up the 
debilitating pain.
    Thankfully, though, after a year and a diligent review of 
my medical records by one doctor at Moody Air Force Base, my 
care changed. He was appalled at the previous treatment I 
received at the hands of the military and referred me to a 
civilian reproductive endocrinologist and a general surgeon. 
These two doctors immediately and correctly diagnosed me with 
sports herniation as a result of wearing the ballistic gear.
    The civilian doctors subsequently corrected eight areas of 
my abdominal wall and attempted to reverse the effects of the 
unnecessary medical treatment I received at the hands of the 
military medical providers, but the damage was already done. I 
now deal with chronic abdominal pain and complications due to 
that medical treatment.
    Further, my husband and I were completely unable to have 
children except through in vitro fertilization [IVF]. To date, 
we have undergone seven rounds of IVF at the personal cost of 
over $60,000.
    Sadly, through much of this process I continued to receive 
substandard care at the hands of the military. During my first 
pregnancy, the doctors at Andrews Air Force Base misdiagnosed 
an ectopic pregnancy, resulting in an emergency surgery and the 
loss of my fallopian tube.
    During our fifth round of IVF, I suffered a miscarriage and 
had to wait 4 days for a D&C [dilation and curettage] at Walter 
Reed, which should have been an emergency surgery. And then, 
after the surgery, the hospital subsequently lost the remains 
of our baby.
    During our sixth round of IVF, after I had separated from 
the Air Force and switched exclusively to civilian providers, I 
received a level of care I had never received while on Active 
Duty and was able to deliver a healthy baby girl in July 2017.
    This fall, my husband and I attempted our last round of 
IVF, but I experienced potentially fatal complications, and as 
a result, we can no longer have children.
    The compound effect of this revelation along with the years 
of medical maltreatment and physical pain took its toll, 
causing me to seek hospitalization once again.
    Now I sit before you, 10 abdominal surgeries later, as a 
broken but not defeated advocate for service members. Even as a 
JAG and experienced advocate, I had to fight hard to receive 
appropriate medical care from the military system. The majority 
of other military members are not in the same position I am, 
especially our enlisted members, to be able to be an advocate.
    Additionally, service women are still being issued ill-
fitting gear when the technology is out there to outfit every 
single female with the right gear if Congress would only 
appropriate the funds to do so.
    Members of the committee, as our champions and advocates, 
you can and must ensure that service members have access to and 
receive appropriate care from trained healthcare professionals. 
This includes providing the full range of women's health 
services in light of the growing number of female service 
military members defending our country.
    You must also ensure that the military medical providers 
are held responsible for their incompetent actions.
    Most importantly, you can ensure that service members who 
have suffered from medical malpractice are able to be 
compensated under the Federal Tort Claims Act for their 
injuries.
    No service member should have to fight as hard as I did for 
their health with the military itself. We have the greatest 
military in the world, and our medical care should be no 
different.
    Thank you for the opportunity to offer my testimony, and I 
look forward to answering any questions you have.
    [The prepared statement of Ms. Lipe can be found in the 
Appendix on page 62.]
    Ms. Speier. Ms. Lipe, thank you for your service to our 
country and for your riveting testimony.
    Dr. Stirling.

  STATEMENT OF DWIGHT STIRLING, J.D., LL.M., CHIEF EXECUTIVE 
          OFFICER, CENTER FOR LAW AND MILITARY POLICY

    Dr. Stirling. Honorable Chairwoman Speier, Ranking Member 
Kelly----
    Ms. Speier. Could you put the microphone closer to you?
    Dr. Stirling. Yes--and members of the committee, I am 
honored to be here today to address this important topic.
    I am the CEO [chief executive officer] of the Center for 
Law and Military Policy, a nonprofit think tank. I am also a 
law professor at the USC [University of Southern California] 
Gould School of Law and a JAG officer in the Army Guard.
    I recently completed a doctoral dissertation on the Feres 
doctrine. My testimony today is a product of having read every 
case and every article that has ever been written about the 
Feres doctrine and my nearly two decades as a military lawyer.
    The Feres doctrine is the most disparaged and discredited 
legal doctrine in modern history. The condemnation has been 
constant and vociferous and nearly universal. The critiques 
that are the most hard-hitting have been made by the 
conservatives, in particular the late Justice Scalia and 
Professor Jonathan Turley.
    To Justice Scalia, the doctrine was simply judicial 
legislation. The plain language of the FTCA [Federal Tort 
Claims Act] includes the personnel who are in the military, yet 
the Supreme Court had rewritten the act to exclude them. To 
him, this was activism at its worst.
    He also condemned the fact that there was a double standard 
at the heart of the doctrine. It only applies to members of the 
military, not to their dependents or to people who are 
retirees.
    Within the military healthcare system, more than three-
fourths are civilians. They are the dependents and the 
retirees. Yet, when a doctor does a surgery and leaves a tool 
in their stomach afterwards, they can sue. Or if any of these 
events that we heard here by my colleagues had taken place to a 
civilian, to a dependent, they can sue. But when it happens to 
a service member, they can't.
    If civil liability was so detrimental to the system, why 
isn't it banned? Why doesn't the ban then apply to everybody? 
Instead, it only applies to the few, to the less than 20 
percent who are actually wearing a uniform.
    Professor Turley, for his part, said that the way the 
doctrine operates reduces the quality of care. Applying a cost-
benefit analysis, government officials overuse folks who are 
military doctors, who can't be sued, and they will underuse the 
civilians who are the specialists, who can be sued. They 
capitalize on a loophole, and they limit the access to the 
specialists who are civilians. As a consequence, according to 
Turley, we are putting our service members' lives at risk.
    This particularly affects the young, the 18- to 22-year-
olds, who are forced to receive almost all their care at a base 
hospital. I, as a major, and folks who are senior officers can 
often get off-post to see a civilian, but the junior enlisted 
can't. They don't have that kind of pull.
    The upshot of all of this is concerning. While our policy 
makers are sending our military personnel to fight and die 
abroad, they fail to protect them at home.
    Let's keep this in mind: Even those in prison can sue when 
a doctor makes a mistake. We are giving more rights and 
protections to those in prison than to those who wear our 
uniform. I keep having the question, does this reflect our 
values? I have a hard time in responding to that in the 
affirmative.
    Okay. Thank you.
    [The prepared statement of Dr. Stirling can be found in the 
Appendix on page 73.]
    Ms. Speier. Thank you, Dr. Stirling.
    Mr. Figley.

STATEMENT OF PAUL F. FIGLEY, J.D., PROFESSOR OF LEGAL RHETORIC, 
         AMERICAN UNIVERSITY WASHINGTON COLLEGE OF LAW

    Mr. Figley. Madam Chair, Mr. Ranking Member, members of the 
committee, by way of experience, I spent three decades 
representing the United States in the Civil Division of 
Department of Justice in Federal Tort Claims Act litigation. 
For the last 15 of those years, I was second in command in the 
office responsible for most of the tort litigation of the 
government. For over a decade now, I have been in academia, 
where I teach torts and where I write about sovereign immunity, 
the FTCA, and the Judgment Fund.
    At the outset, we can all agree that government negligence 
or malpractice does cause real injuries and can have a tragic 
impact on the lives of service members and their families. It 
is understandable that such people are frustrated when they 
perceive that they or their loved ones are being treated 
unfairly.
    From the perspective of one injured service member or one 
family, the remedy may seem obvious: allow the injured service 
member to sue in tort. From the perspective of fostering the 
long-term success of a critically important institution, the 
United States military, that remedy is mistaken.
    Simply put, Congress should not alter the Feres doctrine. 
Doing so would disrupt the vital and special relationship 
between the government and its service members. That 
relationship has roots in the military's unique disciplinary 
system, its special and exclusive system of military justice, 
and its comprehensive compensation system.
    The military compensation is similar to State workers' 
compensation programs in that it provides a prompt, fixed, 
administrative remedy without a showing of employer negligence 
or the time, expense, and emotional burdens of litigation.
    The military system is more encompassing than workers' 
compensation laws because it applies to injuries arising during 
a service member's period of service, not just those arising in 
the course of employment at the workplace. Its benefits are 
substantially broader than those of State workers' compensation 
laws and include programs ranging from education to housing to 
medical home improvements, lifelong care, and sexual trauma. 
The VA booklet describing benefits fills 70 pages.
    If Congress overturns the Feres doctrine, attorneys for 
injured service members will litigate whether someone in the 
government wrongfully caused those injuries. And as the Supreme 
Court has repeatedly recognized, the unique relationship 
between the United States and its service members would be 
undermined if exposed to our adversarial tort system.
    One key part of that relationship is the military's 
obligation to take care of its own and to treat similarly 
situated service members equally. Similarly situated service 
members cannot be treated equally if Congress overturns Feres.
    If three service member amputees share a hospital ward, one 
having lost a leg in combat, one suffering the same loss in a 
tank accident in France, and one because of malpractice by a 
military doctor in New York, each will have the full panoply of 
military benefits. The two who suffered their loss in combat or 
overseas would be barred from suing by the FTCA's exceptions 
for claims arising in combatant activities or foreign 
countries. An FTCA suit by the one injured in New York would 
likely recover a million-dollar judgment. The other two service 
members would know it and may well feel unfairly treated. Such 
feelings undermine military morale and cohesion.
    This is not an idle concern. A key lesson of the September 
11th compensation fund is that providing different, 
individualized awards to members of a group who have suffered a 
similar loss can cause frustration and ill will.
    As the report of that fund's special master explained, 
``There are serious problems posed by a statutory approach 
mandating individualized awards for each eligible claimant. The 
statutory mandate of tailored awards fuel divisiveness among 
claimants and undercut the very cohesion and united national 
response reflected in the act. The fireman's widow would 
complain, `Why am I receiving less money than the stockbroker's 
widow? My husband died a hero. Why are you demeaning the value 
of his life?' ''
    Presidents Truman and Eisenhower understood this when they 
vetoed private bills for the benefit of single service members. 
President Eisenhower explained, quote, ``Uniformity and 
equality of treatment to all who are similarly situated must be 
the steadfast rule if the Federal programs for veterans and 
their dependents are to be operated successfully.''
    For these reasons, Congress should not alter the Feres 
doctrine.
    [The prepared statement of Mr. Figley can be found in the 
Appendix on page 114.]
    Ms. Speier. All right. Thank you all for your testimony.
    Let me start with you, Mr. Figley. Do you think allowing 
service members to sue the government for medical malpractice 
in a noncombat setting would create a worrisome number of 
lawsuits that you might characterize as frivolous?
    Mr. Figley. No. I don't believe so.
    Ms. Speier. Okay. So that would not be an issue.
    You also referenced the trust relationship that exists. And 
there is a special kind of trust that exists between the 
military leadership and service members and their families. 
There is this trust in part because there is a sense that we 
are family and that we will take care of you.
    I want to ask those of you who have suffered the losses and 
the medical malpractice if you feel that the DOD's subsequent 
response has violated that relationship of trust.
    Sergeant Stayskal.
    Sergeant Stayskal. I believe it violates the trust 
completely.
    I mean, you know, when I signed up to do my job, I was 
told: This is your job. You will do this job. You will do it to 
the best of your abilities, no questions asked.
    Well, I believe that when the DOD said that they--whoever--
they said that they would provide me adequate medical care to a 
standard, and they failed that portion.
    So, therefore, my trust is completely broken with them, not 
all of them, but the ones--but then it goes back to, well, 
which one is it? Who knows now? They are blended in, and they 
disappear within the system.
    So the trust is lost completely there. So I don't--I 
don't----
    Ms. Speier. All right.
    Ms. Witt.
    Ms. Witt. I have to agree with Sergeant Stayskal.
    In my particular situation, because of transparency issues, 
even down to making medical choices for my husband at that 
time, I was not, first, aware that he went so long without 
oxygen. I was only told that it was a couple of minutes and 
that they were just observing him until I actually arrived on 
the base and saw the state that he was in. He was in a 
medically induced coma, so I could not tell, like, how severe 
his brain damage was at that time.
    Had I known, I probably would not have had him suffer in 
his hospital room for 3 months. I probably would have taken him 
off life support at that time, which was a ventilation, and he 
probably would have been able to at least have donated his 
organs. And that affects, like, 10 other people in the world 
that were probably waiting on those organs.
    So that trust right there was lost because I couldn't even 
trust the medical providers who were providing him with care.
    Ms. Speier. You know, Ms. Witt, we have very similar 
experiences. My first husband was on life support, and that is 
exactly what I was concerned about, whether or not I would be 
able to donate his organs. So I totally understand what you are 
going through.
    Ms. Lipe, your comments?
    Ms. Lipe. I have completely lost faith in the DOD to be 
able to take care of me.
    I still am actually a Navy spouse. My husband is still 
serving Active Duty in the Navy. And so, therefore, both myself 
and my daughter are entitled to TRICARE benefits and could 
receive all of our care on base for limited cost.
    Instead, I pay an exorbitant amount of money to pay for my 
private insurance with my current employer because I don't 
trust them. I will not let them touch me or my daughter because 
I no longer trust that they can take care of us appropriately.
    Ms. Speier. Dr. Stirling, you know, those who are 
proponents of the Feres doctrine--and, certainly, Mr. Figley 
made mention of this in his testimony--suggest that depriving 
service members of an ability to sue is a fair trade in the 
circumstances, given the generosity and comprehensiveness of 
the military workers' comp scheme.
    Why do you think enabling service members to take legal 
action in malpractice cases is necessary despite the generosity 
of the scheme?
    Dr. Stirling. Because, Chairwoman, it is simply not the 
case. This idea that VA disability is a substitute for a 
lawsuit in the case of malpractice has been exposed as a 
fallacy by every scholar that I have ever read except for Mr. 
Figley. He is in the minority. I think he is the only one who 
has made that kind of a contention.
    And the reason is this. When you apply for VA disability, 
you have to show that there was a cause. You have to show that 
there was some kind of a military act that led to the injury 
that you are claiming has occurred. Well, in malpractice, you 
can't do that, because all the evidence of the cause is--that 
is the negligence. You can't get to the negligence because you 
can't file a lawsuit.
    So how can you show, when you are submitting a VA 
disability claim, that because of the appendectomy, you know, 
now I don't have any feeling within my fingers? It is because 
of the mistake that I lost the feeling. I don't have evidence 
of the mistake because I can't get to those documents. I can't 
sue.
    And, as we have heard, when I then--you know, if I am the 
patient and I am adversarial to the DOD, they shut down the 
information. So what happens? I have seen it time and time 
again as a veteran advocate. When you are hurt due to 
malpractice and you file a claim, the claim is denied. So you 
don't get that claim. That is a fallacy, and it should be 
rejected. And it has been by everyone except for my colleague, 
by Mr. Figley.
    Ms. Speier. Ms. Lipe, you referenced a traumatic experience 
in terms of gynecological services within the military. And it 
is an issue that I have been concerned about for some time, 
because I worry that there aren't enough sophisticated medical 
professionals with gynecological training in the military.
    I just toured a number of bases over the recess, and, 
talking to spouses, I heard that over and over again, that they 
don't diagnose, you know, cysts, for instance.
    What do you think we should do in order to make sure that 
service members who are women, who are going to need 
gynecological services, can get the kind of care they deserve?
    Ms. Lipe. I think especially given the lack of service, 
either increase the amount of the service providers who have 
those specialty skills in the military or allow those service 
members and the spouses, in certain circumstances, to go off-
base and seek out civilian specialty.
    Because, for example, like, a reproductive endocrinologist, 
there are very few of them in the military. If they are not 
going to have one--if you are at Altus Air Force Base, they are 
not going to have an endocrinologist there. They should be able 
to seek out a civilian provider who has that.
    So I think it is allowing greater access to the civilian 
sector, which will also improve the standard of care and it 
will allow the most up-to-date care possible.
    Ms. Speier. Thank you.
    Sergeant Stayskal, in our conversation, I would just like 
some clarification. I was under the impression that when you 
went in for your initial scan before going to dive school that 
they actually noted on the results that you had a lesion and 
that you should be referred, and the powers that be just never 
followed up. Was that my error in my recollection?
    Sergeant Stayskal. Yes, ma'am. It was seen--or it was 
missed--it was missed in the beginning but noted the--they 
noted the second--the first time I went to the ER, they noted 
that it was actually seen on the first scans, and nobody ever 
told me. They never followed up.
    When I was discharged from the ER also, the doctor said, 
there is something there, we have seen something, but we are 
not sure of what it is, so you will have to go see a 
specialist.
    Ms. Speier. So the first scan actually did detect the 
error. It just wasn't--you weren't informed, and you weren't 
referred. And it wasn't until your second visit, which was then 
to the ER, that they said that there was something on your 
scan.
    Sergeant Stayskal. Yes, ma'am.
    Ms. Speier. And then were you referred?
    Sergeant Stayskal. Then I was referred, but by the time I 
had heard from pulmonology, I had an appointment that was about 
30 days out before they would even talk to me. And that was 
what I was fighting to call back and say, hey, I need to be 
seen there. And they said, well, you have to be over a certain 
amount of days before you can be seen off-post, and new 
patients are not priority; existing patients are priorities. So 
that was where I had to keep waiting.
    But, again, even once you are referred off-post, you have 
to wait for the specialty referral to go through the system, 
and that has to go to the provider out in town. Then they have 
to call you and schedule an appointment. And by that time, 
about 6 weeks had gone by, again, from my first ER trip to 
where it had, from that point, spread from my lung over.
    And that was when I started coughing up blood profusely, I 
mean, to the point, when I was sleeping, I mean, it felt like I 
was being waterboarded. I couldn't breathe. I felt like I was 
drowning constantly.
    Ms. Speier. Thank you.
    Dr. Stirling, in your dissertation, you reference that two-
thirds of those who are provided services at military hospitals 
are actually dependents. Is----
    Dr. Stirling. Yes.
    Ms. Speier [continuing]. That correct?
    And that being the case, you would think that we should 
prioritize our service members in terms of getting services. 
But it appears that these facilities are providing services, 
first and foremost, to the spouses and the dependents.
    So, in Sergeant Stayskal's situation, he had to wait 
because there were all those other appointments before him of 
dependents. Is that correct?
    Dr. Stirling. Yes. Yes.
    But what is, I think, you know, particularly a problem is 
this idea that if we allow those hurt through malpractice to 
bring a lawsuit that somehow that is going to cause a 
dissension within the troops. And I love when that kind of 
claim is made by someone who didn't serve. Because I have 
served, and I know that that kind of claim is ridiculous.
    In fact, you know, it plays upon the worst kind of ideas, 
because what it does is it takes this idea that--we all are 
thankful for the infantry. Without the infantry, we wouldn't, 
you know, be here. They are the ones out in the field. And when 
they are hurt, it is important. But it is also important when a 
service member is hurt through the malpractice of a doctor.
    So the idea isn't which injury is more important or what 
one service member feels about another. It is, where is 
liability, you know? It is, where should we have civil 
liability? You know, there is no one--and I am at the top of 
the list--who wants there to be liability in combat. That is 
why our Congress and the FTCA said this doesn't apply to 
combat. That is why the bill that is in front of the committee 
doesn't apply to combat. No one wants a commander concerned 
about a suit on the battlefield. Nobody wants that. But what we 
do want is a doctor to be concerned.
    And so, you know, I ask, you know, how do we know that we 
want our doctors to be concerned? Because in every other aspect 
of our healthcare system, if a doctor is incompetent, he can be 
sued. If we don't like the idea of liability, you know, why do 
we have it everywhere else except for the military in the 
context of medical malpractice? It exists everywhere else 
except for one place, for the 1 percent who are fighting and 
dying for us.
    Is it the right kind of a policy to, you know, have their 
doctors, the ones who are fighting and dying, you know, not 
concerned about a lawsuit but every other doctor, to include 
the ones that do work on each of the Members here--you know, 
they have liability, and they do a good job because of that.
    Ms. Speier. Thank you.
    Ranking Member Kelly.
    Mr. Kelly. Thank each of you again. And it was powerful and 
moving testimony, and I appreciate that.
    Sergeant First Class Stayskal, you know, I want to 
reiterate again, it is not--the problem with this is we are 
talking about the Feres doctrine and we are in the wrong 
committee.
    Ms. Speier. Well----
    Mr. Kelly. We are talking about differences between equity 
and law and equity--or cases of equity and cases of law, dicta 
versus real law. And so I hope the Judiciary Committee is 
listening to this, because these are very, very real 
discussions that need to be had in a committee that can 
actually do something about it.
    We are doing something here, and I thank the chairwoman for 
bringing this. We are doing something because we are 
highlighting their need to address this. But the reality is--
but--so, Sergeant First Class Stayskal, I want to focus on what 
we can do in this committee on military personnel to help other 
soldiers from doing what you have--the wrongs that you have 
been done.
    So did you report any of these incidents to DOD? And what 
actions were taken to investigate the failures of the medical 
treatment?
    Sergeant Stayskal. So, once my wife and I began reading 
back through the notes, the doctors' notes and everything, you 
know, it became very evident that something was wrong. Even 
when I finally got to see my civilian provider out in town, he 
was actually the first one to go, ``Why weren't you seen in 
January? There is clearly a mass there.'' And that was what 
sparked us. And my wife just started reading and reading, and 
before we knew it, it didn't make sense.
    At that point, I actually scheduled a meeting with the OIC 
[officer in charge] of the hospital at the time at Womack. I 
invited my chain of command to go down there with me. They went 
with me. I am not going to speculate where the commander was, 
but he just came off of leave at the time. When I went into his 
office, explained everything that had happened to him, I was 
met with, ``Things do happen.''
    From there, I--pretty much, I mean, there was a lot of back 
and forth, but there was no real answer on--there was nothing 
they could do, you know. So I really got no feedback after 
that. That was pretty much the answer I got, sir.
    Mr. Kelly. I hope that you will let DOD--and hopefully some 
of those guys are listening today, but I hope that you will 
file a complaint so that we can do some systemic things that 
maybe can keep someone else from doing this in the future.
    And I thank you for your service both in the Marine Corps--
and I actually was in the same area but a little bit after when 
you were there. And so thank you for your service.
    Ms. Lipe, you and I met in my office earlier today. And one 
of the stated goals of the 2017 NDAA Military Health System 
reform is to standardize patient experiences, that service 
members receive excellent care regardless of where they are 
seen. And you have covered a little bit of those, but tell me 
the differences in where you have received care.
    And you don't have any confidence in the military 
healthcare system now to care for you and your daughter. Is 
that correct?
    Ms. Lipe. Yes, sir. I was seen at Landstuhl, Eglin Air 
Force Base, Hurlburt Field, Moody Air Force Base. I have seen a 
number of--and Walter Reed. Two, Walter Reed and Landstuhl, are 
one of the most premier hospitals that the military has, and I 
have received medical malpractice in each of those locations.
    So it doesn't give me faith that I am going to be listened 
to, especially when it got to the point of the medical doctors 
telling me I was making it up and that it was in my head. That 
is not treating you. So I had already had the mental health 
issues because of the hormonal depletion, but when you have a 
medical provider just telling you you are making it up, you 
lose faith in their ability to even listen or treat you.
    So now I see only civilian providers and my daughter sees 
only civilian providers. My husband, unfortunately, because he 
is still Active Duty, doesn't have the option to see anything 
but military providers, and that terrifies me.
    Mr. Kelly. And I think we talked about some of those 
things, things that are within--that we can fix on this 
committee, or this subcommittee. And we talked about the body-
armor issue.
    Ms. Lipe. Yes, sir.
    Mr. Kelly. And those are the things we can fix, because 
there is the root cause of this. And we still haven't fixed 
that problem.
    And we also talked about the number of female--not female 
physicians--physicians who are capable of treating uniquely 
female problems. And do you feel there are enough, or do you 
think there are things that our military healthcare system 
could do so that we can better take care of our females in 
service?
    Ms. Lipe. I don't believe there are enough.
    For example, at Walter Reed, you have--the GYNs 
[gynecologists] are dual-hatted in both the IVF clinic as well 
as the GYN clinic. So that is one of the reasons why Walter 
Reed can only provide so many IVF treatment cycles per year. 
They are dual-hatted and trying to serve multi purposes, where 
you need to have specialized care where they can focus on 
specific areas. If you are going to do in vitro, focus on just 
in vitro.
    If you are going to be a GYN, make sure they are the best 
GYNs available. And make sure there are enough of them so you 
are not having to see, necessarily, a nurse practitioner; you 
can see an actual GYN. We need more specialists, and we need 
them to account for the amount of women that are in the 
military.
    And in regards to the gear, the technology is already 
there. It just is outfitting it. We can look at the number of 
women serving in the military, and we can count what the gear 
costs and figure out what the appropriate level of 
appropriations is.
    Mr. Kelly. Would you agree with me that, depending on the 
location that you are, what you need is the best health care 
you can get, whether that is military treatment or outside 
treatment? Someplaces that is available, sometimes it is better 
in the military, sometimes it is better on the civilian world, 
depending on where you are located.
    But would you agree we need to look at how we make sure we 
have the right assets, the right people with the right skills 
in the right place at the right time?
    Ms. Lipe. Absolutely. That is the only reason that I was 
referred to the reproductive endocrinologist who got me 
healthy. I had to drive 2 hours each way to see him, but it was 
worth it. And it was thankfully from one doctor at Moody Air 
Force Base who understood that he did not have the experience 
and knowledge to treat me, and he got me to the doctor who 
could.
    Mr. Kelly. And Ms. Witt, I understand that you have 
advocated for changes to patient safety when administering 
anesthesia. What changes would you make to the military medical 
practices regarding the use of anesthesia?
    Ms. Witt. That is a complicated question, because I am not 
a medical expert, and I haven't--even though I am in school 
right now for prerequisites for nursing, I don't plan on going 
into anesthesia as a nurse.
    I have advocated with medical boards to--I don't 
necessarily think that nurses should be doing anesthesia. I 
think it should just be an anesthesiologist, that they are more 
well-rounded in health care. I believe that they have about 
50,000 more clinical hours and experience and additional 
schooling in order to become an anesthesiologist.
    Therefore, if something happens, you have critical seconds 
to apply medical care to someone, to get an airway opened up 
again if it has become closed off. And a nurse anesthetist 
cannot open up an emergency trach [tracheotomy] to do that. 
Only an anesthesiologist would be able to do that.
    Mr. Kelly. I thank each of you three again for your 
testimony here today. And I am sorry for the travesties that 
each of you have deserved. And I want to make that better for 
our soldiers, sailors, airmen, and Marines and our DOD people 
and their spouses in the future.
    So thank you for your service, and I am sorry from the 
bottom of my heart. I just want each of you to know it never 
should have happened. But let's please do what we can to keep 
it from happening again. Thank you.
    And I yield back.
    Ms. Speier. Thank you.
    Let me clarify for everyone that this committee has full 
jurisdiction over the quality of medical health care in the 
military, and that is why we are having this hearing. I think 
it is very informative to all of us.
    And the amendment to the Federal Tort Claims Act is an 
amendment that I am introducing as a bill later today. And it 
will be named after Sergeant Stayskal.
    And I would like to give this to you, Ranking Member Kelly, 
to look at, to see if you would like to join me in that bill.
    Next is Mr. Gallego.
    Mr. Gallego. Thank you, Madam Chair.
    I understand the current interpretation of the law is that 
military malpractice is an incident to military service. I 
mean, that shocks me, as a combat infantry Marine.
    Sergeant Stayskal, Semper Fi, brother. Thank you for being 
here today.
    When you were training to become a United States Marine and 
later Green Beret, were you ever taught that malpractice is 
incidental to serving in the military?
    Sergeant Stayskal. No. Nobody ever--you never--it wasn't a 
discussion, because, you know, when I was young in my career, 
you had faith in everybody. You know, you didn't know any 
better at the time. But I had faith. You know, I figured I am 
serving with the best of the best, everywhere I was at. So to 
assume that, you know, you would need to worry about something 
like that just wasn't a thought on your mind, you know? And you 
assume that your command, your chain of command all the way to 
the top had your support and they would take care of you.
    And I would also like to share with you, when I was shot in 
2004, I have documentation in my records, a bandage that was 
stuffed in my back from the battlefield itself wasn't found and 
pulled out until I was stateside, all the way back in my duty 
station. Never complained about it, never had an issue with it. 
That was part of my service, that was a part of combat, and we 
accepted stuff like that. Things were going to happen; 
decisions were going to be made.
    But when I walk in in civilian clothes and I have a 
scheduled appointment and I am seeking medical care and 
treatment at that point, you know, I mean, there is no 
battlefield decisions at that point. It is just a standard of 
care that should be there.
    Mr. Gallego. That is right, Sergeant. When I joined, even 
though I was enlisted, I already had a college degree, but 
never knew anything about this type of exception that they 
found under the law.
    Madam Chair, some of my colleagues have told me that 
changing this policy would be difficult because of the high 
cost involved--in other words, that there is so much medical 
malpractice in the military, it could cost billions of dollars 
to allow service members the same rights as their fellow 
citizens.
    I wonder, Madam Chair, what it says about our military 
medical system that it is so bad that we have to actually 
shield it, that it could cost multiple billions of dollars to 
fully allow tort claims, you know, which I think should scare 
us all.
    Madam Chair, the interpretation of Feres by multiple 
administrations is frustrating. This administration is worse, 
obviously, that it is willing to steal billions of dollars from 
recruitment, from counternarcotics accounts, and from crucial 
military construction accounts to make policy choices about 
what it likes, but somehow the billions it might cost to 
provide a more expansive reading of the governing statute and 
Supreme Court decision is too expensive. The lack of moral 
prioritization by this administration is galling.
    Speaking frankly, Madam Chair, the situation we have right 
here is just unjust. It is wrong. Sergeant Stayskal and Ms. 
Witt, both of whom have chosen to spend some of this time with 
us this afternoon, instead of their families, deserve better. I 
hope that there is something that we can do about the 
situation, because the moral imperative is clear. This is 
unjust to our service members and their families.
    And with immense thanks to all the witnesses, and your time 
and your sacrifice and your anger, I yield back.
    Ms. Speier. Thank you, Congressman.
    Next is Congressman Mitchell.
    Mr. Mitchell. Thank you, Madam Chair.
    I would join Mr. Kelly in noting that, while certainly 
health care of our military is within the purview of this 
subcommittee in House Armed Services, the judiciary, the 
process by which who can and cannot sue the Federal Government 
or other institutions is, in fact, not the purview of this 
committee. So I am confused.
    But since we are here, we will proceed with discussing 
the----
    Ms. Speier. Will the gentleman yield?
    Mr. Mitchell. If you yield me time to make up for it----
    Ms. Speier. Absolutely.
    Mr. Mitchell [continuing]. I certainly will.
    Ms. Speier. We will stop the clock for a moment.
    There seems to be a refrain coming from the Republican side 
of the aisle that is, I think, unwarranted. This is a hearing 
that we are having about the quality of health care in the 
military by service members who are not in combat situations. 
They all have referred to what are medical malpractice cases 
that indeed come under Feres, but we have every right and 
responsibility to have a hearing on the quality of health care 
in the military.
    And, with that, I will start the clock again.
    Mr. Mitchell. If you give me a moment to respond to your 
question----
    Ms. Speier. Certainly can.
    Mr. Mitchell [continuing]. I would appreciate it, Madam 
Chair.
    The reality is, the title of the hearing is ``Feres 
Doctrine--A Policy in Need of Reform.'' So the reality is, if 
it was about health care, if it was about the provision of 
health care, which is clearly needing, it is not working well, 
that would be fine. But it is not.
    But given we are here today, we will talk about Feres, we 
will talk about its application, because I think it is 
important.
    I will note for my colleague down at the other end that it 
is not the current administration only that has said that this 
is a problem and expensive. The United States v. Johnson case 
was decided May 18, 1987.
    I think, Mr. Figley, you can help us with how long the 
Feres doctrine has been in place.
    Mr. Figley. It has been in place since 1950.
    Mr. Mitchell. And there has been no effort on the part of 
the administration to change that that I am aware of.
    Mr. Figley. It comes up every few years, and I don't 
believe any administration has supported changing the Feres 
doctrine.
    Mr. Mitchell. I will surprise Madam Chair by saying that I 
am deeply troubled by the Feres doctrine. I have had a chance 
to read the dissent from the late Justice Scalia to the United 
States v. Johnson case, and I couldn't agree more with his 
logic, with his rationale.
    And I would like to talk to you about your rationale, the 
one you have hung on to, about--explain to me your rationale as 
to why Feres should not be addressed.
    Mr. Figley. My point overall is that Feres serves in a way 
that treats everybody in the military the same. It is not that 
military physicians can't be sued. No government position can 
be sued.
    Mr. Mitchell. Okay. Let me----
    Mr. Figley. They all have immunity.
    Mr. Mitchell. If we are going to talk about Feres and its 
uses and application----
    Mr. Figley. Yes.
    Mr. Mitchell [continuing]. And if you are concerned about 
variations of it based on State claims in various States, then, 
in fact, we could modify it or amend it to say they all have to 
be done through Federal court, at which point they would be 
uniform, would it not?
    Mr. Figley. No.
    Mr. Mitchell. Why?
    Mr. Figley. The basic substance of the FTCA applies the law 
of the State where the negligent or wrongful act took place. So 
California malpractice law is different from Oklahoma law.
    But deeper than that, if you suffer medical malpractice 
overseas, suit is barred by the foreign tort exception.
    Mr. Mitchell. You have read the--I assume, I am willing to 
bet you have read the Scalia----
    Mr. Figley. Yes.
    Mr. Mitchell [continuing]. Dissent in which he was joined 
by three other Justices, correct?
    Mr. Figley. Yes.
    Mr. Mitchell. And, I mean, what response do you have to a 
pretty compelling argument that Feres simply should not apply? 
That, in fact, by going for the uniformity you seek, we are 
mistreating our military members, treating them--a Federal 
prisoner has more rights to sue the Federal Government than 
does a member of the military for medical malpractice, among 
other items.
    Mr. Figley. Yes, a Federal prisoner can sue the government 
for medical malpractice. A Federal prisoner cannot sue the 
Federal Government for an injury suffered in prison industries 
as a----
    Mr. Mitchell. Well, but if you would just answer my 
question. You have tried to parse it. But if you could just 
answer it. They can sue for medical malpractice.
    Mr. Figley. Yes.
    Mr. Mitchell. Military members cannot. They can't.
    Mr. Figley. They can--they cannot if it is part of--yes, 
you are right. Typically, they cannot sue, but----
    Mr. Mitchell. So explain to me the rationale, why you would 
argue at this point in time--and I have looked at your 
biography and history--that military members should have less 
rights, which is finally what you said, than a Federal prisoner 
to pursue claims that they have suffered medical malpractice.
    Mr. Figley. Because the Federal prisoner does not have the 
overall compensation----
    Mr. Mitchell. Well, you have just explained it from the 
perspective of a Federal prisoner. What about the perspective 
of a military member?
    Mr. Figley. A military member has all of the support 
systems, put in place by Congress, whether they are adequate or 
not--and I think----
    Mr. Mitchell. With all due respect----
    Mr. Figley [continuing]. They are certainly more generous 
than workers' compensation.
    Mr. Mitchell. With all due respect, they don't. I mean, we 
hear from numerous witnesses here--and I apologize. I had a 
press conference I had to go to, so my apologies. I have read 
your opening statements. So please understand it is not just 
out of the blue. And I am offended by it.
    But, more importantly, Madam Chair, I believe that Feres 
needs to be addressed not just for medical malpractice. There 
are other claims that military members should be able to pursue 
that, in fact, Feres and its subsequent rulings have 
prohibited. The idea of uniformity.
    The other is--the other which amazes me is military chain 
of command. Are you kidding me? We have people being injured 
because of negligence outside of duties as a combatant. You go 
to combat, you understand that is the deal. You are in a combat 
environment, people are taking adverse action, that is the 
deal. But outside of that, why should they be stripped of their 
rights while they are sitting on base and someone hits them by 
a car? Why?
    Mr. Figley. For the same reason that if you are a bus 
driver for Greyhound Bus and you are struck by a Greyhound Bus, 
you can't sue Greyhound Bus as workers' compensation. Now, you 
could----
    Mr. Mitchell. Dr. Stirling, go ahead. Join us, please. I 
only have a little bit of time, and I apologize, but----
    Dr. Stirling. When something happens at a hospital on base, 
that is between the doctor and the patient. That information 
doesn't get back to the chain of command. It can't----
    Mr. Mitchell. Certainly hopefully not.
    Dr. Stirling [continuing]. Because of HIPAA [Health 
Insurance Portability and Accountability Act]. I work as a JAG 
officer in the Army. It cannot. If it gets back, then the 
person who has relayed it back will get into trouble.
    The idea that being able to sue a doctor would affect the 
good order and discipline of the unit is ridiculous, and it has 
been rejected by every scholar that I have ever read, to 
include in the Johnson case.
    The idea--well, here. I will tell the group this. I have 
worked for many years as a JAG, as a prosecutor. And what I do 
is I handle the accusations typically in the sexual assault 
case, of a survivor of a sex assault who is making an 
accusation against someone who is in the chain of command. 
Oftentimes that is against the commander. So here we have a 
charge made within the unit between a survivor of assault and 
the commander, and we let those cases go forward. And they 
don't hurt good order and discipline.
    So this idea that--if I could just finish. So the idea that 
if we allow a suit between a patient and a doctor that is 
completely removed from the chain of command, that it would 
somehow affect the good order and discipline is just 
ridiculous.
    Mr. Mitchell. Well, let me, because I have gone well over 
my time--and I apologize, Madam Chair.
    I believe that discussing it solely in terms of medical 
malpractice is inadequate. I believe that since the courts have 
failed to deal with this effectively--I don't even agree with 
the logic of the Feres doctrine to actually believe it----
    Dr. Stirling. And I agree with you on that.
    Mr. Mitchell [continuing]. We need to address this on a 
more holistic basis so that, in fact, our military should not 
have fewer rights to protect themselves, to recover in 
circumstances of negligence, than do other citizens. And right 
now they do, and it is morally wrong.
    So, with all due respect, thank you for the additional 
time. I appreciate it. Thank you very much for being here. I 
appreciate your service, sir--all of you. I am sorry.
    Ms. Speier. Thank you, Mr. Mitchell.
    Mr. Cisneros.
    Mr. Cisneros. Thank you, Madam Chair.
    Thank you, Staff Sergeant, Ms. Witt, and Ms. Lipe, for 
being here today.
    Ms. Witt, I want to ask you a question just basically based 
on your testimony. You said you have to apply on an annual 
basis for you, and I think you said your children biannually, 
for VA compensation to your husband's death.
    How much do you get from the VA on a yearly basis, if you 
don't mind me asking?
    Ms. Witt. I can give you an approximate number, because I 
don't have my taxes in front of me.
    So I believe that there are two different types of 
benefits. So the Department of Defense has the survivors' 
benefit, which is taxable. That is paid to my children. And 
then the Department of Veterans Affairs has the Dependency and 
Indemnity Compensation that is not taxable, nor is it 
transferable.
    If I did not have children, say, if I was a widow to 
someone who I had not had children with, I would not be able to 
receive both these benefits together.
    To answer your question directly, I believe that my 
children each get about $450 each from the Department of 
Defense for survivors' benefits, so you can do the math on that 
if you want.
    Ms. Speier. And it is taxed.
    Ms. Witt. And now it is increasingly taxed because of the 
recent tax codes that have gone up, but----
    Mr. Cisneros. Right.
    Ms. Witt [continuing]. I mean, it can be as much as 37 
percent, because it is being treated like a trust for a very 
wealthy child.
    Mr. Cisneros. Right. So I will just say, it is not very 
much.
    So, Dr. Stirling, if she was permitted to allow a suit for 
malpractice, I mean, based on your experience, how much do you 
think she could have gotten?
    Dr. Stirling. From what I have heard here, Congressman, you 
know, $10 million or more. That kind of negligence, of the 
injection of a drug during a routine appendectomy that results 
in the death of the patient, where there is no explanation for 
it, it is just an error by the nurse, it would be, you know, 
$10 million or more.
    And the idea there is that if we are concerned about a 
sense of a double compensation, if we are concerned that, oh, 
she could get a claim for, let's say, $10 million and receive 
from the VA, we do adjustments like this within the government 
all the time, where we could reduce the amount of her claim 
that she got from the FTCA by the amount that she receives from 
the VA. We can make that adjustment. We do it all the time.
    There is a lot of concern that I have heard from Mr. Figley 
about the double-dipping idea, that, oh, there would be a 
judgment on a lawsuit and--no. We can make that adjustment. We 
do it all the time. That was one of the points within the 
dissent within the Johnson case, is we were told by Justice 
Scalia that these kind of adjustments are done on a routine 
basis.
    For instance, I work in the National Guard. I have applied 
for a claim under the VA for a disability. If I get that claim, 
if I prevail on that claim and I get some kind of a rating, I 
won't be able to receive my money from the VA until I am out of 
the Guard, because, otherwise, it would be seen as a double 
compensation. We can make those adjustments.
    Mr. Cisneros. Right.
    And just one other question. I know, Mr. Figley, you had 
mentioned that one of the reasons for doing this is because all 
members of the military are treated equal and to make sure, if 
one person was able to sue for one injury that they had, when 
somebody was sitting in the--sharing a hospital room with them, 
would feel mistreated because of that. And you brought up the 
fact that after
9/11 those individuals received equal payments. That----
    Mr. Figley. No, they did not receive----
    Mr. Cisneros. Right. That is not true.
    Mr. Figley. They received unequal payments. That was the 
problem.
    Mr. Cisneros. Correct. So if they received unequal payments 
in that situation, why couldn't we do that, the same thing for 
our military folks? It should be, if somebody was treated 
wrongly and done wrong, why shouldn't they be justified there 
through the means of being able to sue and get compensation for 
that mistake and that injustice that was done to them?
    Mr. Figley. Certainly, Congress can decide to do that. The 
disadvantage is that people with similar injuries could receive 
drastically different amounts. If you are injured in Toronto, 
you would get nothing. If you are injured in Kansas, you would 
get much less than if you had exactly the same injury in 
California or New York.
    Mr. Cisneros. Well, I mean, this is done in Federal--go 
ahead, Dr. Stirling.
    Dr. Stirling. Well, it is just, that happens all the time 
under the FTCA. Under the FTCA, the way that it is written is 
it is the State law in that State that controls. That happens 
all the time right now. So why are we using this as an argument 
to stop a service member from being able to recover when 
everybody else can?
    Mr. Cisneros. Right. Yeah. People are able and allowed to 
sue now for malpractice in different States, and they are not 
always going to get the same compensation, there is no equality 
there.
    Dr. Stirling. Right.
    Mr. Cisneros. So why should we go on and continue?
    So my time has expired. Thank you very much.
    Ms. Speier. Thank you.
    Ms. Escobar.
    Ms. Escobar. Thank you, Madam Chair, for bringing us 
together for this very important hearing.
    I want to thank all of our witnesses for being here today. 
I really appreciate your testimony, especially the three of you 
who have been so deeply, traumatically impacted by what 
happened to you. Your stories are moving and horrifying and 
powerful.
    And, Ms. Witt, your sister is a constituent of mine in El 
Paso, and she reached out to me. And it is a privilege to get 
to meet you--all of you, really.
    My question--and it is somewhat along the lines of what my 
colleague Mr. Cisneros started talking about with regard to 
compensation. The purpose of being able to sue when you have 
been wronged is so that you can receive compensation for your 
pain, for your suffering, for the time and money that you are 
out as a result of someone's negligence.
    And, Ms. Lipe, you mentioned a little bit about the 
extraordinary amounts of money that you have had to expend 
personally so you can have a family.
    And so I am wondering if each one of you wouldn't mind, 
just very briefly, if you had to put a number on what this has 
cost you--and I know that it is impossible to put a number on 
the trauma and the pain and the loss, especially you, Ms. 
Witt--but the lost income, amount that you have had to spend on 
physicians. Have you thought about that cost? Have you 
calculated that before?
    Ms. Lipe, you are nodding, so maybe we start with you and 
then we work our way over.
    Ms. Lipe. I have thought about it, because, to Mr. Figley's 
point that the VA compensation is adequate, is completely a 
misstatement. I receive disability compensation. It would have 
taken me 35 months of my disability compensation to actually 
pay for what I have paid in for IVF.
    Additionally, my VA compensation can't--there is no 
accountability or diagnostic code for infertility. There is no 
diagnostic code for abdominal pain without any cause. So you 
can't have everything if you don't have a code to claim.
    I see it as not only the money I have spent to have my 
daughter, the money we would need to spend, up to $50,000 
probably, to have another child if we would pursue adoption; 
the pain and suffering I feel every day. I take eight pills a 
day just to function. As Dr. Stirling said, it would be in the 
millions, because I don't know for how long I will be able to 
work. So there is loss of earning capacity.
    Now, I will say that, yes, I am a lawyer, so I think about 
it a little more practically, but, for me, it is more the 
noneconomic, the pain and suffering, the lost time with my 
family, the days I have to lay on the couch while my husband 
plays with my daughter and trying to explain to an almost-2-
year-old why Mommy can't play with her.
    I would say it would be in the millions, just for 
noneconomic. And that is something you can never recover 
through a VA claim.
    Ms. Escobar. Right. Thank you.
    Ms. Witt. I don't know if I have ever actually thought of a 
dead figure. I know, when I first filed my wrongful death suit, 
we had to fill in the block for, like, how much money do you 
want to sue for. And I think we came up with just the loss of 
income and the fact that my husband was 25 at the time. He was 
approaching the peak of his earning income, because he wanted 
to start going to school, start using his benefits for 
education and become a commissioned officer. So the number that 
we had figured was about $5 million.
    And to raise a child, it costs $270,000 from zero to 18. 
And that barely covers, like, just their basic care. That 
doesn't cover extras like going on family vacations or 
extracurricular activities that they want to do. Nor does it 
cover their education benefits, even though my children will 
receive education benefits.
    And then there is just loss of time with my children. I am 
a single parent. Employers are not very forgiving to single 
mothers, and it is very difficult to find a job and an employer 
who is compassionate, that knows, hey, I can't drop off my kids 
to daycare this day because they have a 104-degree temperature. 
And even going to school at the time, professors were not very 
forgiving of me having to miss days or even bring my sick child 
into the classroom so that I could complete my degree.
    And then there is just the severity of the loneliness. I 
have chosen not to remarry because of this, because I will lose 
this income that is coming in that I will say has major 
disparities in it that need to be fixed.
    So I would say, at the time it was $5 million, but I would 
say, I believe the lawyer at the time that was filing that for 
me told me that was a very conservative number given what we 
had gone through as a family and the fact that my husband was 
essentially brain dead after an appendectomy.
    Ms. Escobar. Thank you.
    Sergeant Stayskal. First off, you know, when this illness 
finally takes me, my wife will join Ms. Witt in all of the same 
things firsthand. So I don't need to repeat any of that.
    I am not going to answer, truthfully, ma'am. I am sorry, 
but I can't put a number on my life. There isn't an amount. You 
know, I think my kids would probably pay you money to get my 
life back.
    But I know, over the last year since we have been off-post 
to see specialty referrals down in Tampa, Florida, I mean, we 
drive our own car, we pay for our own gas. I mean, we are 8, 9, 
10 hours, 11 hours in the car, every 3 months. Sometimes there 
was charitable donations that helped us with gas cards; a lot 
of times there wasn't.
    You know, I didn't make the law, I didn't pass the law 
about how best to handle these things was through amounts of 
money. But my answer would be: whatever amount keeps that 
practitioner from practicing again.
    Ms. Escobar. Yeah.
    Sergeant Stayskal. So that is not up to me to decide. That 
is up to attorneys and lawyers. That is up to you all in 
Congress to make those decisions about money. But that would be 
my answer. Whatever stops that person from making that same 
mistake again, put that number on it, and that would be my 
answer.
    Ms. Escobar. Thank you, Madam Chairwoman.
    Thank you all.
    And my point with that was not to try to measure what a 
life is valued at, but the fact that you were not able to sue 
and to get compensation. You are losing more than just through 
pain and suffering, but there is a real cost to the fact that 
this is happening to all of you.
    Ms. Speier. Before going to Mr. Crist, I have one question 
for Ms. Witt.
    You said that you can't make more than $8,000 a year or you 
lose your veterans benefit? Could you just clarify?
    Ms. Witt. Yes, that is right. That is about a round figure 
from the last time that I checked the website.
    I receive from the Department of Veterans Affairs the DIC 
payment, which I think is rated for about half of what my 
husband's retirement would be if he were to have gone about 20 
years in the military and retired in full.
    As I was looking at that, I don't know how often this is 
enforced, but I do know that there is an earned-income 
restriction right around $8,000 or $9,000. And there are also 
earned-income restrictions with Social Security as well.
    It is very difficult to find an employer and a job, let 
alone one that is part-time, that is graded for someone my age. 
I mean, usually, part-time work usually goes to students and to 
people who are much younger than me and also don't have 
children. So unless I had found an employer that can meet those 
restrictions, I have chosen at this time not to work and just 
be home with my family.
    Ms. Speier. So you would probably have taken a full-time 
position if you didn't have that restriction on a cap of making 
no more than $8,000 a year.
    I mean, it is sort of like, you know, adding insult to 
injury to have that kind of a restriction. I mean, you have 
been widowed by malpractice in the military system, and you are 
now struggling to try and maintain a quality of life for your 
family, all due to the fact that there was malpractice at a 
military hospital.
    So we are going to pursue this more.
    Mr. Crist.
    Mr. Crist. Thank you. And, Chairwoman Speier, I want to 
thank you, particularly, for your graciousness in allowing me, 
as not a committee member, to participate in this hearing 
today. And so thank you for your leadership, and for all the 
advocates.
    And to the three witnesses who have been subject to this 
horrific Feres doctrine, I can't thank you enough for your 
courage in being here today, sharing with us your personal 
story about how this has affected your lives and your families' 
lives. It takes a lot of strength to do that, and you are 
commended for it.
    And it is Sergeant First Class Richard Stayskal? Am I 
saying that correctly, sir?
    Sergeant Stayskal. Yes, sir. ``Stayskal.''
    Mr. Crist. Great. I am curious, how did you first learn 
that you would not be able to file a case, you know, in 
conjunction with what happened to you?
    Sergeant Stayskal. Well, when I first started talking about 
it with coworkers and just family and everybody else, you know, 
the thought was, how is your wife going to provide for herself, 
how is she going to take care of the kids on a single income, 
and all that.
    You know, I am not a big fan of the whole thing, but it 
made sense. You know, like Ms. Witt was saying, it is a fact; 
it takes money to raise children and provide for them.
    So, when I started looking into it first, I believe the 
first place I went was on Womack down to JAG, and that was my 
first question. I said, ``Hey, I would like some information 
about how I would file a lawsuit against a civilian 
practitioner who works at Womack.'' And the answer I was met 
with was, ``You cannot.'' And I said, ``Well, why not?'' ``I 
don't know why exactly, but there is a law that says you 
cannot.'' That was the best answer he could give me at the 
time.
    And then I pretty much just went on from there. So after 
that, I figured, well, no military JAG was going to help me, so 
we thought, let's look off-post. So my wife--I think we rounded 
the number--well, let's call it 10. She called about 10 
offices, crying, telling the story over and over and over 
again. And every time, they said, that is a compelling story, 
but I am sorry, nobody is going to take your case, and nobody 
is going to listen to you.
    That was pretty much how that went until we met a 
whistleblower law firm down in Tampa, who--they saw the same 
thing you all are seeing here today, that this is egregious and 
it needs a fix.
    Mr. Crist. Well, thank you.
    I found out about your case, in particular, in Tampa Bay. I 
represent St. Petersburg and Clearwater on the other side of 
Tampa Bay from Tampa. And I was with a reporter with our NBC 
[National Broadcasting Company] affiliate, Steve Andrews. And, 
you know, we were at Bay Pines, which is our VA hospital in 
Pinellas County, talking about a different story. And he 
mentioned to me what was happening to you. And he said, well, 
what do you think about that? I said, that sounds ridiculous. 
And he said, well, what do you think ought to be done? I said, 
we ought to reverse the law. And because of the chairwoman's 
leadership, we are at that point.
    But, but for having found out about your circumstance and 
your situation, similar to the ones that the other two of you 
have suffered, we wouldn't be here right now, I don't think.
    And so the leadership by this chairwoman is extraordinary. 
It is appropriate to be in this committee. You all are related 
to military or military yourself. This is the Armed Services 
Committee. I mean, maybe other committees could weigh in too, 
and maybe they should.
    But I just can't thank the three of you enough for being 
here and your courage and your strength, and God bless you.
    Ms. Speier. Thank you.
    All right. Do you have any closing remarks you would like 
to make, Ranking Member?
    Mr. Kelly. Thank you, Chairwoman.
    And I don't contest that we shouldn't be hearing this in 
the committee. My problem is not with Chairwoman Speier in 
having this hearing, because we have brought this to the 
attention of the people who can do something. We need to have 
this hearing in the committee of jurisdiction which can make a 
change.
    And my second point to that is, we need to change the 
things that we can to make it better. Healthcare reform is 
important, and it is part--this is something we can do, not to 
help you, but we can keep it from happening to someone else.
    And, Chairwoman, I appreciate your leadership in having 
this. And I am going to help you push the Judiciary Committee 
to do their job and have this hearing over there, where they 
can fix this part of the problem. So thank you, Chairwoman.
    Ms. Speier. Okay. Thank you, Ranking Member Kelly.
    We have been in conversation with a number of members on 
the Judiciary Committee. They are very anxious to work with us. 
We wanted to do this jointly with them today, but they had a 
markup, so that wasn't something that we were able to arrange.
    But let me just say that this has been a very powerful 
hearing. Powerful because the three of you came forward to tell 
what are truly reprehensible experiences. They deserve to be 
dealt with the way we deal with cases like that that happen to 
your spouses or your children or that happen through the VA 
system or that happen to a felon in jail. So this has got to be 
fixed.
    The fact that this has been on the books for 69 years 
because the judges--the Justices, I should say, of the Supreme 
Court decided to legislate, is wrong.
    And it is wrong that it has gone on as long as it has 
without the Congress of the United States putting their big-
people britches on and doing the hard work to come up with a 
solution that is going to provide justice and that is going to 
treat service members like others are treated in Federal 
service in a noncombatant setting.
    So we have lots to do, but you have given us the grist that 
we will use in order to make sure that we move forward on this. 
So we are deeply grateful to all of you, and also to you, Dr. 
Stirling and Mr. Figley, for bringing your perspectives to this 
hearing.
    We now stand adjourned.
    [Whereupon, at 3:53 p.m., the subcommittee was adjourned.]



      
=======================================================================




                            A P P E N D I X

                             April 30, 2019

=======================================================================

      



      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 30, 2019

=======================================================================

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
 
   
    
  
    
   

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             April 30, 2019

=======================================================================

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
  
   
    
                           <all>
</pre></body></html>
